Office of Material Loss Reviews
Report No. MLR-10-006


Material Loss Review of American
Southern Bank, Kennesaw, Georgia




                                  December 2009
                                      Executive Summary

                                      Material Loss Review of American Southern
                                      Bank, Kennesaw, Georgia
                                                                                       Report No. MLR-10-006
                                                                                              December 2009

Why We Did The Audit
On April 24, 2009, the Georgia Department of Banking and Finance (GDBF) closed American Southern
Bank (American Southern), Kennesaw, Georgia, and named the FDIC as receiver. On June 5, 2009, the
FDIC notified the OIG that American Southern’s total assets at closing were $113.4 million and the
material loss to the Deposit Insurance Fund (DIF) was $41.7 million. As required by section 38(k) of the
Federal Deposit Insurance (FDI) Act, the OIG conducted a material loss review of the failure of American
Southern.

The audit objectives were to (1) determine the causes of the financial institution’s failure and resulting
material loss to the DIF and (2) evaluate the FDIC’s supervision of the institution, including
implementation of the Prompt Corrective Action (PCA) provisions of section 38.

Background
American Southern was a state-chartered, nonmember bank that was insured by the FDIC on August 30,
2005. During most of the bank’s existence, American Southern was designated as a “de novo” institution,
indicating a newly established bank that is in its first 3 years of operation. American Southern was
headquartered in Kennesaw, Georgia, and had no branch offices. American Southern provided traditional
banking services within its marketplace and was a full-service community bank specializing in residential
and commercial real estate loans, including residential acquisition, development and construction (ADC)
loans. The bank was wholly-owned by a one-bank holding company, American Southern Bancorp,
Incorporated, with no other subsidiaries or affiliates.


Audit Results

Causes of Failure and Material Loss

American Southern failed because its Board of Directors and management materially deviated from its
business plan by pursuing a strategy of growth centered in ADC lending, while excessively relying on
wholesale funding sources to fund that growth. Further, American Southern management did not exercise
proper oversight of the bank’s significant concentrations in ADC loans. The weaknesses in American
Southern’s loan portfolio were accentuated by a downturn in the bank’s market area. Declining earnings
resulting from the deteriorating quality of loans in American Southern’s ADC loan portfolio severely
eroded the bank’s capital. In turn, the bank’s liquidity became deficient as wholesale funding sources that
American Southern used to fund its asset growth were restricted.

The FDIC’s Supervision of American Southern

The FDIC and GDBF provided continuous supervisory oversight of American Southern from the bank’s
inception in August 2005 until the bank was closed in April 2009. The FDIC’s examinations and
visitations of American Southern identified key concerns for attention by bank management, including the
high ADC loan concentrations and dependency on volatile funding that ultimately led to the bank’s
failure. Also, the FDIC and GDBF pursued enforcement action in 2008 as the bank’s financial condition
deteriorated prior to its failure in 2009. However, more supervisory attention may have been warranted,
in light of the bank’s de novo status and material deviations from its business plan. Also, more



                                  To view the full report, go to www.fdicig.gov
   Executive Summary
                                     Material Loss Review of American Southern
                                     Bank, Kennesaw, Georgia
                                                                                   Report No. MLR-10-006
                                                                                          December 2009

aggressive supervisory follow-up to ensure the bank implemented corrective actions for examiner
concerns related to ADC loan concentrations and use of brokered deposits may have mitigated, to some
extent, American Southern’s losses.

With respect to PCA, the FDIC properly implemented applicable PCA provisions of section 38; however,
PCA’s role in mitigating the losses to the DIF was limited because PCA did not require action until the
institution was at serious risk of failure. The FDIC notified American Southern that it was Adequately
Capitalized on February 6, 2009. On March 11, 2009, the FDIC informed the bank that its PCA capital
category had fallen to Critically Undercapitalized, where it remained until the bank was closed.


Management Response

After we issued our draft report, we met with management officials to further discuss our results.
Management provided additional information for our consideration, and we revised our report to reflect
this information, as appropriate. On November 30, 2009, the Director, DSC, provided a written response
to the draft report.

DSC reiterated the OIG’s conclusions regarding the causes of American Southern’s failure. With regard
to our assessment of the FDIC’s supervision of American Southern, DSC’s response acknowledged that
stringent supervisory attention is necessary for de novo institutions and stated that the examinations,
visitations, and offsite monitoring conducted on American Southern identified key concerns for
management attention, including the deviation from the business plan, high concentration levels, and
weak risk management practices. DSC’s response also stated that DSC had recently extended its
supervisory program so that de novo institutions receive a full-scope examination every year for 7 years,
as opposed to 3 years, and de novo business plans are being closely monitored against approved financial
projections throughout the 7-year period. Specifically, FIL-50-2009, issued in August 2009, describes the
program changes for de novo institutions and warns that changes undertaken without required prior notice
may subject an institution or its insiders to civil money penalties. Further, DSC has issued updated
guidance reminding examiners to take appropriate supervisory action when capital levels are inadequate
for CRE concentrations or funding risks are imprudently managed.




                                 To view the full report, go to www.fdicig.gov
                                Contents
                                                                       Page
Background                                                               2

Causes of Failure and Material Loss                                      2
  Deviation from the Business Plan                                       3
  Rapid Growth in ADC Lending                                            3
  Reliance on Wholesale Funding Sources                                  5

The FDIC’s Supervision of American Southern                              7
   Supervisory History                                                   7
   Supervisory Attention Given to American Southern’s Adherence to
    Its Business Plan                                                    9
   Consideration of Risk Presented by ADC Concentrations                11
  Implementation of PCA                                                 12

Corporation Comments                                                    13

Appendices
  1. Objectives, Scope, and Methodology                                 14
  2. Glossary of Terms                                                  16
  3. Acronyms                                                           17
  4. Corporation Comments                                               18

Tables
   1. Selected Financial Information for American Southern               2
   2. American Southern’s ADC Loans as a Percentage of Total Capital     4
   3. American Southern’s Supervisory History from 2005 to 2009          8

Figures
   1. American Southern’s ADC Loan Concentration Compared to             4
      Peers
   2. American Southern’s Brokered Deposits Compared to Peers            6
Federal Deposit Insurance Corporation
3501 Fairfax Drive, Arlington, VA 22226                                                 Office of Inspector General


DATE:                                     December 2, 2009

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection


                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Assistant Inspector General for Material Loss Reviews

SUBJECT:                                  Material Loss Review of American Southern Bank,
                                          Kennesaw, Georgia (Report No. MLR-10-006)


As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the Office of
Inspector General (OIG) conducted a material loss1 review of the failure of American
Southern Bank (American Southern), Kennesaw, Georgia. On April 24, 2009, the
Georgia Department of Banking and Finance (GDBF) closed the institution and named
the FDIC as receiver. On June 5, 2009, the FDIC notified the OIG that American
Southern’s total assets at closing were $113.4 million and the material loss to the Deposit
Insurance Fund (DIF) was $41.7 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency which
reviews the agency’s supervision of the institution, including the agency’s
implementation of FDI Act section 38, Prompt Corrective Action (PCA); ascertains why
the institution’s problems resulted in a material loss to the DIF; and makes
recommendations to prevent future losses.

The audit objectives were to: (1) determine the causes of the financial institution’s
failure and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision2 of
the institution, including implementation of the PCA provisions of section 38 of the FDI
Act. Appendix 1 contains details on our objectives, scope, and methodology; Appendix 2
contains a glossary of terms; and Appendix 3 contains a list of acronyms used in the
report. Appendix 4 contains the Corporation’s comments on this report.


1
  As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25 million
or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices (including internal control systems), and compliance with applicable laws and
regulations and (2) issues related guidance to institutions and examiners.
This report presents the FDIC OIG’s analysis of American Southern’s failure and the
FDIC’s efforts to ensure American Southern’s management operated the bank in a safe
and sound manner. We are not making recommendations. Instead, as major causes,
trends, and common characteristics of financial institution failures are identified in our
reviews, we will communicate those to management for its consideration. As resources
allow, we may also conduct more in-depth reviews of specific aspects of the FDIC’s
supervision program and make recommendations, as warranted.


Background
American Southern was a state-chartered, nonmember bank established by the GDBF and
insured by the FDIC effective August 30, 2005. At the time American Southern was
established and received deposit insurance, the bank was designated as a “de novo”
institution, indicating a newly established bank that is in its first 3 years of operation.
The bank initially opened in a temporary location in Roswell, Georgia, and subsequently
relocated to a permanent location in Kennesaw, Georgia, in October 2008. American
Southern provided traditional banking services within its marketplace and was a full-
service community bank specializing in residential and commercial real estate (CRE)
loans, including residential acquisition, development, and construction (ADC) loans. The
bank was wholly-owned by a one-bank holding company, American Southern Bancorp,
Incorporated, with no other subsidiaries or affiliates.

Table 1 provides details on American Southern’s financial condition as of December
2008, and for the 3 preceding calendar years.

Table 1: Selected Financial Information for American Southern
 Financial Data                             Dec 2008 Dec 2007 Dec 2006                Dec 2005
 Total Assets ($000s)                       $110,070  $67,575  $46,337                 $24,554
 Total Loans ($000s)                         $64,703  $52,372  $30,192                  $7,164
 Total Deposits ($000s)                     $102,124  $57,088  $34,490                 $14,244
 Total Brokered Deposits ($000s)             $52,750    $8,438  $6,988                       $0
 Brokered Deposits as a % of Total Deposits   51.65%   14.78%  20.26%                       0%
 Net Income (Loss) ($000s)                   ($3,511) ($1,681)    ($97)                 ($728)
Source: Uniform Bank Performance Reports (UBPR) and Reports of Examination (ROE) for American
Southern.



Causes of Failure and Material Loss
American Southern failed because its Board of Directors (BOD) and management
materially deviated from its business plan by pursuing a strategy of growth centered in
ADC lending, while excessively relying on wholesale funding sources to fund that
growth. Further, American Southern management did not exercise proper oversight of
the bank’s significant concentrations in ADC loans. The weaknesses in American
Southern’s loan portfolio were accentuated by a downturn in the bank’s market area.
Declining earnings resulting from the deteriorating quality of loans in American


                                                2
Southern’s ADC loan portfolio severely eroded the bank’s capital. In turn, the bank’s
liquidity became deficient as wholesale funding sources that American Southern used to
fund its asset growth were restricted.

Evidence of the cause of American Southern’s failure can also be seen in its adversely
classified assets, which increased significantly from $1.8 million at the July 2007
examination to $14.1 million identified at the August 2008 examination. In addition,
loans on which borrowers were not current with their payments reached a substantial
12.5 percent of gross loans as of the August 2008 examination and the percentage of such
loans in American Southern’s portfolio was significantly higher than its peer group
averages in 2007, 2008, and 2009. The resulting provisions for loan and lease losses
reduced net income levels and contributed to material operating losses. In addition,
property taken over by the bank through loan foreclosures – referred to as other real
estate owned (OREO) – had increased substantially and totaled $4.7 million at the August
2008 examination. The majority of the OREO consisted of residential lots, both
undeveloped and developed.

Deviation from the Business Plan

American Southern’s original business plan essentially was to maintain a low-risk profile
characterized by the bank’s plans to operate a traditional bank, catering to small- and
medium-size businesses in its market area. Traditional banking services would be
offered to the local community and no high-risk lending was planned. The bank planned
to fund asset growth through traditional sources and would avoid all undue
concentrations of loans to a single industry or a single type of collateral. In addition,
American Southern’s planned business strategy included establishing core deposits,
including checking accounts, Money Market accounts, a variety of certificates of deposit
(CD), and individual retirement accounts. The bank planned to avoid jumbo deposits,
with its primary sources of deposits consisting of the small- to medium-sized commercial
customer and the customer working or residing within the vicinity of the bank.

However, upon opening the bank, management quickly deviated from its original
business plan and moved quickly to a high-risk profile involving ADC concentrations and
brokered deposits. These two business strategies and their consequences are discussed in
detail in the following two sections of this report.

Rapid Growth in ADC Lending

American Southern’s decision to concentrate in ADC loans was the principal factor
leading to the bank's poor financial condition and subsequent failure. Deficient oversight
of its high ADC loan concentrations negatively impacted the bank’s ability to effectively
manage operations in a declining economic environment.

Immediately following its establishment, American Southern pursued a strategy of rapid
loan growth. From December 2005 through December 2006, the bank’s loan portfolio
increased 321 percent. American Southern’s loan growth resulted in concentrations in



                                            3
ADC loans that significantly exceeded the bank’s peer group averages. As shown in
Figure 1, in 2005 and 2006, the bank’s ADC loans as a percentage of total loans was 2 to
3 times higher than that of its peer group.

Figure 1: American Southern’s ADC Loan Concentration Compared to Peers
                             80%
                                                67%                           American Southern
                             70%
  ADC Loans to Total Loans




                                                                              Peers
                                                                 55%
                             60%

                             50%
                                   38%                                    44%
                             40%

                             30%

                             20%
                                          16%   21%              22%
                             10%                                        17%

                             0%
                                   2005         2006            2007   2008
                                                       Period

 Source: December 2005 to 2008 UBPR data for American Southern.

According to Financial Institution Letter (FIL) 104-2006, entitled Concentrations in
Commercial Real Estate, Sound Risk Management Practices, dated December 12, 2006,
such concentrations can pose substantial potential risks and can inflict large losses on
institutions. Although the guidance does not specifically limit a bank’s ADC lending, the
guidance provides supervisory criteria for identifying financial institutions that may have
potentially significant ADC loan concentrations warranting greater supervisory scrutiny.
Specifically, it states that ADC concentrations that represent 100 percent or more of the
institution’s total capital can pose substantial potential risk to an institution.

As shown in Table 2, in the years 2006-2008, American Southern’s concentrations in
ADC loans exceeded the regulatory guidance thresholds, which identified institutions that
may have warranted greater supervisory scrutiny. In addition, ADC loans as a percentage
of the bank’s total capital were significantly above the bank’s peer group averages during
the same period.

Table 2: American Southern’s ADC Loans as a Percentage of Total Capital
                                                           American
    Period         American
                                        Peers              Southern
    Ended          Southern
                                                          Percentile
 Dec 2005              26%               27%                  61
 Dec 2006             168%               86%                  80
 Dec 2007             267%              131%                  85
 Dec 2008             356%              130%                  95
Source: UBPR data for American Southern.




                                                           4
FIL-104-2006 also describes a risk management framework that institutions should
implement to effectively identify, measure, monitor, and control concentration risk. That
framework includes effective oversight by bank management, including the BOD and
senior executives; portfolio stress testing and sensitivity analysis; sound loan
underwriting and administration; and portfolio management practices.

The dollar volume of American Southern’s ADC loans far exceeded the bank’s original
business plan projections. Specifically, the bank originally projected that by year 3 it
would have $5.3 million in such loans. However, by the August 2008 examination,
3 years after the bank was established, the actual ADC loan portfolio totaled
$13.4 million (154 percent above the bank’s initial projection). Additionally, by August
2008, American Southern’s ADC loans totaled 332 percent of Tier 1 Capital, a level that
was in excess of the bank’s then-internal policy limit of 250 percent for that
concentration.

At the first full-scope examination performed by GDBF in February 2006, examiners
noted that the bank had one individual concentration and that management should begin
tracking and reporting concentrations to the BOD at least quarterly. At that time,
American Southern had an ADC concentration of 26 percent of Tier 1 Capital. By the
time the FDIC conducted its examination in August 2006, the ADC concentration had
increased to 156 percent of Tier 1 Capital. The FDIC cited American Southern for
violating the Order for Federal Deposit Insurance provision for materially operating
outside of its business plan, which only projected an 8-percent concentration in ADC
lending.

Reliance on Wholesale Funding Sources

American Southern heavily relied on wholesale sources to fund its asset growth. Starting
in 2006, American Southern’s loan growth had outpaced core deposit growth, and the
bank began to show an increasing reliance on non-core funds. As a result of the bank's
slower-than-projected core deposit growth, a substantial volume of brokered deposits was
obtained to fund ADC lending.

From December 2006 through December 2008, bank management increased brokered
deposits from $6.9 million to $52.7 million. In addition, the bank held Internet and
out-of-territory CDs totaling $11 million. With the exception of 2007, the bank
maintained brokered deposit levels well above peer group averages, as shown in Figure 2.




                                            5
Figure 2: American Southern’s Brokered Deposits Compared to Peers
                                          60%
                                                                                   51.65%
     Brokerd Deposits to Total Deposits                                                       50.08%
                                          50%


                                          40%
                                                                                                       American Southern
                                                                                                       Peers
                                          30%
                                                             20.26%
                                                                      14.78%
                                          20%

                                                                                                14.59%
                                          10%
                                                                                     15.15%
                                                             8.06%        10.00%
                                                     1.92%
                                          0% 0.00%
                                                 2005        2006        2007       2008       2009
                                                                        Period


Source: December 2005 to March 2009 UBPR data for American Southern.

During the August 2008 examination, examiners found the bank’s poor financial
performance had directly affected management’s access to borrowing facilities and its
efforts to address the institution’s strained liquidity position. The increased volume of
non-performing loans and OREO decreased cash inflows at a time when American
Southern still needed to fund maturing brokered deposits and existing unfunded loan
commitments. According to the examiners, deposit growth lagged the bank’s business
plan projections, primarily due to the bank’s poor location, poor visibility, and a
competitive rate environment.

Two banks declined to extend credit to American Southern on an unsecured basis; rather,
they required the bank to collateralize any advances with investment securities.
Moreover, the Federal Home Loan Bank of Atlanta denied management's application to
establish a borrowing line due, in part, to the bank's distressed financial position.
Further, due to the institution's deteriorated state, management could no longer obtain
brokered deposits through the Certificate of Deposit Account Registry Service (CDARS)3
program, and maturing CDARS deposits could not be renewed. After exhausting the
options outlined above, on November 14, 2008, management filed an application under
the U.S. Department of the Treasury’s Troubled Asset Relief Program; however, they
later withdrew the application. Ultimately, absent funding, the bank failed on April 24,
2009.




3
 CDARS is a program in which depositors may attain full FDIC insurance on deposits of up to
$50 million.


                                                                           6
The FDIC’s Supervision of American Southern
The FDIC’s examinations and visitations of American Southern identified key concerns
for attention by bank management, including the high ADC loan concentrations and
dependency on volatile funding that ultimately led to the bank’s failure. Also, the FDIC
and GDBF pursued enforcement action in 2008 as the bank’s financial condition
deteriorated prior to its failure in 2009. However, more supervisory attention may have
been warranted, in light of the bank’s de novo status and material deviations from its
business plan. Also, more aggressive supervisory follow-up to ensure the bank
implemented corrective actions for examiner concerns related to ADC loan
concentrations and use of brokered deposits may have mitigated, to some extent,
American Southern’s losses.

Supervisory History

As a de novo bank, American Southern was required to adhere to conditions4 established
by the GDBF, which granted American Southern’s charter, and by the FDIC, which
approved the bank’s application for deposit insurance. Those conditions included, but
were not limited to, operating within the parameters of the bank’s business plan,
obtaining annual financial statement audits, and obtaining qualified and experienced
management. In addition, as a de novo institution, American Southern was subject to an
increased examination frequency, with examinations during the first 3 years conducted on
a 12-month schedule.

The GDBF and FDIC alternated safety and soundness examinations of American
Southern, conducting four full-scope examinations from February 2006 through June
2008. In addition, the GDBF conducted a pre-opening visitation in August 2005, and
three subsequent visitations between October 2005 and April 2006.5 Also, a limited
scope joint visitation was conducted prior to the closing of the bank to determine the
condition of the asset quality and the level of capital.

Table 3 lists American Southern’s examination and visitation dates, the entity conducting
the examination, the CAMELS component and composite ratings,6 and any supervisory
action taken.



4
  Along with the submission of initial applications for deposit insurance, proposed financial institutions are
expected to submit business plans that include information on a bank’s business strategy and financial data
for a 3-year period.
5
  Three visitations were conducted by the GDBF in October 2005, January 2006, and April 2006 to identify
and assess issues related to the BOD. These visitations did not result in ratings being assigned or changed.
6
  Financial institution regulators and examiners use the Uniform Financial Institutions Rating System
(UFIRS) to evaluate a bank’s performance in six components represented by the CAMELS acronym:
Capital adequacy, Asset quality, Management practices, Earnings performance, Liquidity position, and
Sensitivity to market risk. Each component, and an overall composite score, is assigned a rating of 1
through 5, with 1 having the least regulatory concern and 5 having the greatest concern.



                                                      7
Table 3: American Southern’s Supervisory History from 2005 to 2009
                                                               Supervisory
   Examination              Examination
                                                      Agency     Ratings      Supervisory Action
    Start Date               as of Date
                                                                 (UFIRS)
August 24, 2005       Pre-Opening Visitation      GDBF          Not Rated    None
October 5, 2005       Visitation                  GDBF          Not Rated    None
January 10, 2006      Visitation                  GDBF          Not Rated    Administrative Actions
February 24, 2006     December 31, 2005           GDBF          112312/2     None
April 10, 2006        Visitation                  GDBF          Not Rated    None
August 14, 2006       June 30, 2006               FDIC          112322/2     None
July 16, 2007         June 30, 2007               GDBF          112322/2     None
August 4, 2008        June 30, 2008               FDIC          444543/4     Cease and Desist Order
April 1, 2009*        Visitation                  Joint*        555555/5     Rating Downgrade
Source: ROEs and visitations for American Southern.
* Joint visitation conducted by the FDIC and GDBF.

January 10, 2006. The GDBF conducted an onsite visitation and made
recommendations related to concerns identified at prior visitations. Specifically, the
GDBF recommended that American Southern implement two administrative actions
involving (1) hiring a full-time Chief Financial Officer and (2) limiting the involvement
of the bank’s Chairman of the Board and his son from daily involvement in the bank’s
operations.

February 24, 2006. The GDBF conducted the first full-scope examination and
concluded that the overall condition of the bank was satisfactory. Examiners noted that
management had addressed or was in the process of addressing issues identified during
the two prior visitations. Earnings were found less than satisfactory; however, according
to regulators, this was to be expected in a de novo bank. Asset quality was considered
strong with no adversely classified assets recognized at this examination. The
examination resulted in the bank being rated a composite “2.”

August 14, 2006. The FDIC conducted the second full-scope examination of the bank.
Again, earnings were seen as typical of a de novo bank and were less than satisfactory,
and liquidity was deemed adequate. Overall, management had satisfactorily instituted
formal policies and control measures. Asset quality and capital were rated strong.
Examiners also noted that due to the bank's slower-than-projected core deposit growth, a
substantial volume of brokered deposits had been obtained and constituted 27 percent of
total deposits. These deposits, along with other deposits, had been used to fund ADC
lending, which amounted to 74 percent of gross loans. According to examiners, the
actual concentration of ADC lending constituted a material change from the pre-opening
business plan that projected only 8 percent of total loans as ADC; however, no prior
notification from management was given to the regulators regarding the change in the
plan. The bank's overall condition was found to be satisfactory and the bank was rated a
composite “2.”

July 16, 2007. The GDBF conducted the third full-scope examination. The overall
condition of the bank was considered satisfactory. Asset quality and capital levels were


                                                  8
considered strong. Examiners found that the bank’s earnings continued to improve and
the bank had a moderate reliance on non-core funding sources to fund strong asset
growth, while the bank's sensitivity to market risk remained adequately monitored.
Management, loan underwriting, and credit administration were considered satisfactory.
In addition, the bank was operating under a new business plan that the GDBF had
approved through the issuance of a Non-Objection Letter dated January 17, 2007. As a
result of the examination findings, the bank was assigned an examination rating of a
composite “2.”

August 4, 2008. The FDIC conducted the final full-scope examination of the bank. The
overall condition of the bank had deteriorated significantly since the previous GDBF
examination due to losses in the ADC loan portfolio, combined with the downturn in the
Atlanta real estate market. Earnings performance was critically deficient because of high
non-performing asset levels, substantial loan loss reserve provisions, and elevated
funding costs. Examiners noted that bank management’s decision to increase ADC
lending, coupled with its inability to properly oversee the expansion of the ADC loan
portfolio, was primarily responsible for the decline in asset quality. Poor financial
performance had directly affected management’s access to borrowing facilities, which
impacted efforts to address the institution’s strained liquidity position. As a result of the
examination findings, the bank was downgraded to a composite “4.”

During a March 11, 2009 meeting, the BOD was presented with a copy of a proposed
Cease and Desist Order (C&D) resulting from the FDIC’s August 4, 2008 examination.
The bank was formally notified of the proposed C&D on December 11, 2008. On
March 19, 2009, bank management agreed to the C&D. The C&D contained provisions
that addressed management, capital, liquidity, asset quality, earnings, reserves,
information technology, and brokered deposits. The C&D remained outstanding until the
institution closed.

April 1, 2009. The FDIC and the GDBF conducted a targeted visitation to assess capital
and the bank’s allowance for loan and lease losses. Examiners confirmed that the bank
was Critically Undercapitalized. Based on the findings of the interim visitation, the
bank's CAMELS rating was downgraded to a composite “5.” Due to the bank’s failure to
raise additional capital, American Southern was closed on April 24, 2009.

Supervisory Attention Given to American Southern’s Adherence to Its
Business Plan

As referenced earlier, American Southern continually and materially deviated from its
original and revised business plans by quickly and consistently exceeding ADC loan
growth projections and obtaining substantial amounts of brokered deposits to fund the
ADC loan growth. In January 2007, American Southern submitted, and the regulators
approved, a revised business plan that contained updated financial projections for the
bank. However, the revised plan also included potentially risky practices related to the
types and acceptable levels of ADC loans and the use of brokered deposits.




                                              9
Proposed financial institutions are expected to submit business plans with their initial
applications for federal deposit insurance. According to the FDIC Statement of Policy on
Applications for Deposit Insurance, and consistent with sections 5 and 6 of the FDI Act,
the FDIC must be assured that the proposed institution does not present an undue risk to
the DIF. The FDIC expects that proposed institutions will submit a business plan
commensurate with the capabilities of its management and the financial commitment of
the incorporators. Any significant deviation from the business plan within the first
3 years of operation—the de novo phase—as required by the FDIC’s Final Order for
Deposit Insurance must be reported by the insured depository institution to the primary
federal regulator 60 days before consummation of the change.7

DSC’s Risk Management Manual of Examination Policies (Examination Manual) states
that examiners should review and evaluate current business plans and any changes to the
plan since the previous examination. The August 2006 through August 2008
examination analyses of American Southern’s compliance with its business plans
identified that the deposit growth had lagged pre-opening projections. Also, ADC loans
dominated the loan function and exceeded the original business plan, which projected
ADC loans would be 8 percent of total loans. By year end 2006, ADC loans represented
67 percent of total loans. In addition, although the original business plan did not specify
brokered deposit limits, the bank had obtained a substantial volume of brokered deposits.
In fact, they represented 27 percent of total deposits. According to examiners, although
bank management had provided no prior notification to the regulators, the bank’s ADC
concentrations and use of brokered deposits constituted a material change from the pre-
opening business plan.

American Southern requested approval from the GDBF and FDIC of a revised business
plan in January 2007. The proposed revisions included, but were not limited to, the
following:

    •    ADC lending was added to the revised business plan as a desirable loan type, and
         a CRE concentration range of 400 percent to 500 percent of the bank’s capital was
         added. In addition, the plan was revised to allow construction loans to be made
         on a contract (pre-sold) or speculative basis.

    •    The bank’s use of brokered deposits was added with limits of 75 percent to
         80 percent of the bank’s total deposits. Further, the revised plan stated that if
         management was unable to fund the bank's loan demand using core deposits,
         management would rely on jumbo and brokered deposits until such time as
         sufficient core deposits could be raised to support loan demand.

According to the regulators, the proposed revisions were reasonable, given the level of
competition in the Roswell area and the experience of the bank management team in the

7
  On August 28, 2009, the FDIC issued FIL-50-2009, entitled Enhanced Supervisory Procedures for Newly
Insured FDIC-Supervised Depository Institutions. Notably, the FIL extended the de novo period to 7 years
for examinations, capital, and other requirements. In addition, material changes in business plans for newly
insured institutions would require prior FDIC approval during the first 7 years of operation.


                                                    10
proposed market. However, during the review of the revised business plan, the regulators
expressed concern that although the 3-year projections were not unreasonable, they
seemed optimistic.

On January 17, 2007, the GDBF informed the bank that it had no objections to the
revisions as submitted, after being advised by the FDIC that it had no objection to the
revised plan. The only condition the FDIC added was that the bank should ensure it
maintained a Tier 1 Leverage Capital ratio of at least 8 percent for its first 3 years of
operation.

Prior to the failure of American Southern, the FDIC had not issued guidance to examiners
that defined what would constitute a major change or deviation in a business plan.
However, in conjunction with the issuance of FIL-50-2009, the FDIC issued internal
guidance to its examiners, which noted that examiner judgment is critical in determining
a major change or material deviation in the business plan. The internal guidance also
specified selected circumstances – such as a bank entering into a new line of business –
that would be considered a major change or deviation in a business plan.

Consideration of Risk Presented by ADC Concentrations

American Southern’s rapid growth in ADC lending consistently exceeded supervisory
guidelines and resulted in a high-risk profile for the institution. This was particularly true
given its de novo status. This high-risk profile, however, did not result in elevated
supervisory concern or actions early enough to sufficiently mitigate American Southern’s
vulnerability to substantial losses.

Onsite examinations of American Southern identified concerns related to the bank’s ADC
lending that could have resulted in elevated supervisory concern by the FDIC. As early
as 2006, up through 2008, the bank’s ROEs warned that guidelines were necessary for the
proper management of the inherent risk associated with concentrations of credit.
Throughout this period, ROEs noted the continued increase in concentrations of ADC
loans, increasing trends in adversely classified assets, and increasing amounts of
nonperforming loans and OREO. In addition, the ROEs noted that the bank’s risk
management policies and practices for the credit function needed improvements, to
include:

   •   Establishing policy limits and risk tolerance levels for ADC lending,
   •   Tracking and reporting concentrations to the BOD,
   •   Preparing detailed loan-aging reports, and
   •   Identifying exposures by borrower and property location.

Also, according to examiners, the bank’s failure to require up-front cash equity, and its
neglect in performing global cash flow analyses and verifying the liquid assets of some
borrowers, contributed to the deterioration within the loan portfolio.




                                             11
Implementation of PCA

The purpose of PCA is to resolve problems of insured depository institutions at the least
possible long-term cost to the DIF. PCA establishes a system of restrictions and
mandatory and discretionary supervisory actions that are to be triggered depending on an
institution’s capital levels. Part 325 of the FDIC’s Rules and Regulations implements
PCA requirements by establishing a framework for taking prompt corrective action
against insured nonmember banks that are not adequately capitalized. With respect to
PCA, the FDIC properly implemented applicable PCA provisions of section 38; however,
PCA’s role in mitigating the losses to the DIF was limited because PCA did not require
action until the institution was at serious risk of failure.

On February 6, 2009, the FDIC sent American Southern a Notification of Capital
Category informing the bank that based on the bank’s December 31, 2008 Consolidated
Reports of Condition and Income (Call Report), the capital ratios indicated that the bank
had become less than Well Capitalized, and was considered Adequately Capitalized. As a
result of its Adequately Capitalized status, American Southern was prohibited from
accepting, renewing, or rolling over brokered deposits unless it applied for and was
approved for a waiver.

On March 11, 2009, the FDIC sent the bank’s BOD a second Notification of Capital
Category informing the bank that, based on the results of a bank-initiated external loan
review, the bank’s loan loss provision of approximately $8 million would exceed the
bank’s capital account by approximately $1.7 million. According to the FDIC, a
significant portion of the $8 million provision was associated with the actions of one
bank official that “masked” the condition of the loan portfolio. As a result, the bank was
considered Critically Undercapitalized. The bank was informed that, effective
immediately, it would be subject to restrictions on asset growth, dividends, other capital
disbursements, and management fees. The bank was also restricted from entering into
any material transaction other than in the usual course of business, including any
investment, expansion, acquisition, or sale of assets. In addition, the bank was required
to file a written capital restoration plan with the Regional Director within 30 days of the
date of receipt of the notification letter. Also, the bank was reminded that it was
restricted from accepting, renewing, or rolling over any brokered deposits.

The FDIC and GDBF conducted an interim visitation on April 1, 2009 and confirmed
that the bank was Critically Undercapitalized. The bank's composite rating was
downgraded to "5.” According to the bank’s March 31, 2009 Call Report data, American
Southern’s capital ratios were as follows:

   •   Tier 1 Leverage Capital        -0.37 percent
   •   Tier 1 Risk-Based Capital      -0.47 percent
   •   Total Risk-Based Capital       -0.47 percent.

Such negative ratios were far below those of an institution that is considered Significantly
Undercapitalized, clearly placing American Southern in the Critically Undercapitalized



                                             12
capital category. On April 24, 2009, the GDBF closed American Southern and the FDIC
was appointed receiver.


Corporation Comments
After we issued our draft report, we met with management officials to further discuss our
results. Management provided additional information for our consideration, and we
revised our report to reflect this information, as appropriate. On November 30, 2009, the
Director, DSC, provided a written response to the draft report. That response is provided
in its entirety as Appendix 4 of this report.

DSC reiterated the OIG’s conclusions regarding the causes of American Southern’s
failure. With regard to our assessment of the FDIC’s supervision of American Southern,
DSC’s response acknowledged that stringent supervisory attention is necessary for de
novo institutions and stated that the examinations, visitations, and offsite monitoring
conducted on American Southern identified key concerns for management attention,
including the deviation from the business plan, high concentration levels, and weak risk
management practices. DSC’s response also stated that DSC had recently extended its
supervisory program so that de novo institutions receive a full-scope examination every
year for 7 years, as opposed to 3 years, and de novo business plans are being closely
monitored against approved financial projections throughout the 7-year period.
Specifically, FIL-50-2009, issued in August 2009, describes the program changes for de
novo institutions and warns that changes undertaken without required prior notice may
subject an institution or its insiders to civil money penalties. Further, DSC has issued
updated guidance reminding examiners to take appropriate supervisory action when
capital levels are inadequate for CRE concentrations or funding risks are imprudently
managed.




                                           13
                                                                               Appendix 1
                    Objectives, Scope, and Methodology

Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, which
provides, in general, that if a deposit insurance fund incurs a material loss with respect to
an insured depository institution, the Inspector General of the appropriate federal banking
agency shall prepare a report to that agency reviewing the agency’s supervision of the
institution. The FDI Act requires that the report be completed within 6 months after it
becomes apparent that a material loss has been incurred.

Our audit objectives were to (1) determine the causes of the financial institution’s failure
and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
institution, including implementation of the PCA provisions of section 38.

We conducted this performance audit from June 15, 2009 to October 23, 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Scope and Methodology

The scope of this audit included an analysis of American Southern’s operations from
August 30, 2005 until its failure on April 24, 2009. Our review also entailed an
evaluation of the regulatory supervision of the institution over the same period.

To achieve the objectives, we performed the following procedures and techniques:

   •   Analyzed ROEs prepared by the FDIC and the GDBF examiners from
       February 24, 2006 to August 4, 2008.

   •   Reviewed the following:

           o Bank data and correspondence maintained at the FDIC’s Atlanta Regional
             Office (ARO) and Atlanta Field Office (AFO).

           o Reports prepared by the Division of Resolutions and Receiverships (DRR)
             and DSC relating to the bank’s closure. We also reviewed available bank
             records maintained by DRR in Dallas, Texas, for information that would
             provide insight into the bank's failure.

           o Pertinent DSC policies and procedures.




                                             14
                                                                               Appendix 1
                   Objectives, Scope, and Methodology


   •   Interviewed the following FDIC officials:

           o   DSC management in Washington, D.C., and the ARO.

           o   DRR officials from the Dallas Regional Office.

           o   FDIC examiners from the ARO and AFO who participated in
               examinations or reviews of examinations of American Southern.

   •   Met with officials from the GDBF to discuss the historical perspective of the
       institution, its examinations, and other activities regarding the state's supervision
       of the bank.

We performed the audit field work at the DSC offices in Atlanta, Georgia.

Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports, ROEs,
and interviews of examiners to understand American Southern’s management controls
pertaining to causes of failure and material loss as discussed in the body of this report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including ROEs, correspondence files, and testimonial evidence to
corroborate data obtained from systems that was used to support our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act. The results of our tests were discussed,
where appropriate, in the report. Additionally, we assessed the risk of fraud and abuse
related to our objectives in the course of evaluating audit evidence.




                                             15
                                                                                   Appendix 2

                                Glossary of Terms

      Term                                           Definition
Adversely           Assets subject to criticism and/or comment in an examination report.
Classified Assets   Adversely classified assets are allocated on the basis of risk (lowest to
                    highest) into three categories: Substandard, Doubtful, and Loss.

Allowance for       Federally insured depository institutions must maintain an ALLL that is
Loan and Lease      adequate to absorb the estimated loan losses associated with the loan and
Losses (ALLL)       lease portfolio (including all binding commitments to lend). To the
                    extent not provided for in a separate liability account, the ALLL should
                    also be sufficient to absorb estimated loan losses associated with off-
                    balance sheet loan instruments such as standby letters of loan.

Cease and Desist    A C&D is a formal enforcement action issued by a financial institution
Order (C&D)         regulator to a bank or affiliated party to stop an unsafe or unsound
                    practice or a violation of laws and regulations. A C&D may be
                    terminated when the bank’s condition has significantly improved and the
                    action is no longer needed or the bank has materially complied with its
                    terms.

Concentration       A concentration is a significantly large volume of economically related
                    assets that an institution has advanced or committed to a certain industry,
                    person, entity, or affiliated group. These assets may, in the aggregate,
                    present a substantial risk to the safety and soundness of the institution.

Prompt              The purpose of PCA is to resolve the problems of insured depository
Corrective          institutions at the least possible long-term cost to the DIF. Part 325 of the
Action (PCA)        FDIC Rules and Regulations, 12 Code of Federal Regulations, section
                    325.101, et. seq., implements section 38, Prompt Corrective Action, of
                    the FDI Act, 12 United States Code section 1831o, by establishing a
                    framework for taking prompt supervisory actions against insured
                    nonmember banks that are less than adequately capitalized. The
                    following terms are used to describe capital adequacy: (1) Well
                    Capitalized, (2) Adequately Capitalized, (3) Undercapitalized,
                    (4) Significantly Undercapitalized, and (5) Critically Undercapitalized.

                    A PCA Directive is a formal enforcement action seeking corrective action
                    or compliance with the PCA statute with respect to an institution that
                    falls within any of the three categories of undercapitalized institutions.

Uniform Bank        The UBPR is an individual analysis of financial institution financial data
Performance         and ratios that includes extensive comparisons to peer group
Report (UBPR)       performance. The report is produced by the Federal Financial Institutions
                    Examination Council for the use of banking supervisors, bankers, and the
                    general public and is produced quarterly from Call Report data submitted
                    by banks.




                                              16
                                                                  Appendix 3

                           Acronyms

ADC      Acquisition, Development, and Construction

AFO      Atlanta Field Office

ARO      Atlanta Regional Office

BOD      Board of Directors

C&D      Cease and Desist Order

CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity, and
         Sensitivity to Market Risk

CD       Certificate of Deposit

CDARS    Certificate of Deposit Account Registry Service

CRE      Commercial Real Estate

DIF      Deposit Insurance Fund

DRR      Division of Resolutions and Receiverships

DSC      Division of Supervision and Consumer Protection

FDI      Federal Deposit Insurance

FIL      Financial Institution Letter

GDBF     Georgia Department of Banking and Finance

OIG      Office of Inspector General

OREO     Other Real Estate Owned

PCA      Prompt Corrective Action

ROE      Report of Examination

UBPR     Uniform Bank Performance Report

UFIRS    Uniform Financial Institutions Rating System




                                  17
                                                                                                           Appendix 4

                              Corporation Comments



FDII
Federal Depoit Iniurance Corporation
550 17h Streel NW, Washington, O.C 2029-999                           Oiyision 01 Supeisio an Consumer PrOlecon


                                                                       November 3D. 2009

MEMORANDUM TO:                       Stephen Beard
                                     Assistant   Inspector General for Material Loss Reviews

FROM:                                Sandra L. Thompson
                                     Director

SUBJECT:                             Draft Audit Report Entitled, Material Loss Review of American
                                     Southern Bank, Kennesaw, Georgia
                                     (Assignment No. 2009-049)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act (FDl Act), the Federal Deposit
Insurance Corporation's Offce of Inspector General (OlG) conducted a malerialloss review of
American Southern Bank (American Southern) which failed on April 24, 2009. This
memorandum is the response of    the Division of Supervision and Consumer Protection (DSC) to
the OIG's Draft Report (Report) received on November 6,2009.

The Report concludes American Southern failed due to the Board and senior management's
deviation from its regulatory approved business plan, This deviation resulted in rapid growth
concentrated in commercial real estate (CRE) loans and acquisition, development, and
construction projects with ineffective risk management practices. The growth was funded
through wholesale funding sources. Weakesses in loan underwiting, credit administration, and
risk analysis and recognition practices were prevalent and contributed to the overall decline of
the institution.


The Report indicates that American Southern, due to its de novo status, was subject to additional
supervisory oversight and regulatory controls. The examinations, visitation, and offsite
monitoring conducted by DSC and the Georgia Deparment of Banking and Finance identified
key concerns for management attention, including the deviation from business plan, high
concentration levels, and weak risk management practices,

In recognition that stringent supervisory attention is necessary for de novo institutions, DSC
recently extended its supervisory program so that these institutions receive a full scope
examination every year for seven years, as opposed to three years. De novo business plans are
being closely monitored against approved financial projections throughout the seven year period.
The Financial Institution Letter, issued in August of2009, describes the program changes for de
novo institutions and warns that changes undertaken without required prior notice may subject an
institution or its insiders to civil money penalties. Further, DSC has issued updatcd guidance
reminding examiners to take appropriate supervisory action when capital levels are inadequate
for CRE concentrations or funding risks are imprudently managed.

 Thank you for the opportunity to review and comment on the Draft Audit Report.




                                                       18
